                               SENSITIVE BUT UNCLASSIFIED





                   UNITED STATES DEPARTMENT OF STATE 

               AND THE BROADCASTING BOARD OF GOVERNORS

                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-05A                                   Office of Inspections                                     March 2014




                     Inspection of

            Embassy San Salvador, El Salvador





IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED

                           SENSITIVE BUT UNCLASSIFIED


                    PURPOSE, SCOPE, AND METHODOLOGY

                           OF THE INSPECTION


        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •	 Policy Implementation: whether policy goals and objectives are being effectively
      achieved; whether U.S. interests are being accurately and effectively represented; and
      whether all elements of an office or mission are being adequately coordinated.

   •	 Resource Management: whether resources are being used and managed with maximum
      efficiency, effectiveness, and economy and whether financial transactions and accounts
      are properly conducted, maintained, and reported.

   •	 Management Controls: whether the administration of activities and operations meets the
      requirements of applicable laws and regulations; whether internal management controls
      have been instituted to ensure quality of performance and reduce the likelihood of
      mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
      steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents
Key Judgments                                                          1

Context                                                                2

Executive Direction                                                    3

Policy and Program Implementation                                      6

  Political Section                                                    6

  Economic Section                                                     6

  Leahy Vetting                                                        7

  Records Management                                                   7

  Foreign Assistance Oversight                                         7

  International Narcotics and Law Enforcement Section                  8

  International Law Enforcement Academy                                9

  Public Affairs Section                                              10

  Consular Section                                                    11

Resource Management                                                   15

  Management Section                                                  16

  Rightsizing                                                         16

  Financial Management                                                17

  International Cooperative Administrative Support Services Council   18

  Human Resources Office                                              18

  General Services                                                    20

  Facilities Maintenance                                              20

  Safety, Health, and Environmental Management                        21

  Information Management                                              21

Quality of Life                                                       23

  Community Liaison Office                                            23

  Schools                                                             23

  American Employees Association                                      23

Management Controls                                                   24

List of Recommendations                                               25

List of Informal Recommendations                                      27

Principal Officials                                                   29

Abbreviations                                                         30





                                      iii

                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



Key Judgments

   •	 The Ambassador directs a cohesive mission that effectively promotes U.S. interests. Her
      extensive political contacts, Spanish language proficiency, and engaging public persona
      resonate positively with Salvadorans across the political and social spectrums.

   •	 The embassy coordinates U.S. foreign assistance programs, with total funding of about
      $1 billion over the last 5 years. It uses the Partnership for Growth framework to set
      priorities and measure results. The embassy could improve its coordination of
      Washington-based programs by creating a comprehensive inventory and reviewing all
      activities regularly to ensure proper oversight and policy coordination.

   •	 Demand for immigrant visa services has doubled over the last 5 years, straining a
      consular section already operating at the limits of its space capacity. Consular
      management has streamlined operations, but the mission still needs new construction to
      increase the number of interview windows and provide additional workspace to meet a
      growing immigrant visa and American citizen workload.

   •	 U.S. direct-hire staffing has grown by 39 positions since 2006. Continued growth may
      negatively affect the embassy’s ability to support operations and protect its personnel.

   •	 The management section delivers good service and follows sound internal controls
      practices. The mission can achieve additional efficiencies by outsourcing voucher
      processing and position classification to regional centers.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between September 9 and 30, 2013; and in San
Salvador, El Salvador, between October 19 and November 5, 2013. Ambassador Carol van
Voorst (team leader), Arne B. Baker (deputy team leader), David P. Bocskor, Ronda M. Capeles,
Leo J. Hession, Dolores J. Hylander, Daniel C. McCollum, Leslie A. Gerson, Robyn E. Hinson-
Jones, Barry J. Langevin, Ken Moskowitz, Charles A. Rowcliffe, and Timothy A. Wildy
conducted the inspection.




                                       1
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Context 

       El Salvador’s 6 million residents live in the smallest, most densely populated country in
Central America. In 1992, El Salvador ended a 12-year civil war that killed 75,000 residents and
drove nearly a quarter of the population into exile. Although El Salvador has reestablished
multiparty democracy and made significant progress improving social indicators such as infant
mortality and literacy, the economy is hobbled by inequality, crime, and poverty. Roughly 40
percent of Salvadorans live below the poverty level. Despite a recent truce between the 40,000
members of two violent transnational gangs, MS-13 and Barrio 18, El Salvador reports the
second highest homicide rate in the world. The almost 2 million U.S. residents who claim
Salvadoran ancestry sent remittances to El Salvador that totaled $4 billion in 2012, 16 percent of
the country’s gross domestic product. In a recent Pew Research Center survey, 79 percent of
Salvadorans reported a favorable opinion of the United States, and nearly two-thirds said they
would like to live in the United States.

      The 2009 election of leftist Farabundo Marti National Liberation Front candidate
Mauricio Funes after 20 years of rightist rule marked the first time the party of the former rebels
assumed power. All post-war elections have been free and fair. Funes has governed as a
moderate and maintained close ties with the United States. The United States is committed to
working with the winner of the presidential election scheduled for early 2014.

         El Salvador is the only country in the Western Hemisphere that participates in the
Partnership for Growth (PFG), a presidential initiative to improve economic and security
conditions. Two Millennium Challenge Corporation (MCC) compacts will provide a total of
$737.9 million over a 10-year period to the Government of El Salvador. The U.S. Agency for
International Development (USAID) and the Department’s Central American Regional Security
Initiative (CARSI) together provide about $42 million in annual assistance focused on crime
reduction, judicial sector reform, community policing, and gang resistance training, among other
programs. El Salvador is a reliable military partner. The international airport at Comalapa hosts a
cooperative security location for U.S. military personnel, and El Salvador contributes troops to
United Nations peacekeeping operations, as well as to the North Atlantic Treaty Organization
(NATO)-led mission in Afghanistan.

         Embassy San Salvador has 134 U.S. direct-hire employees and 314 locally employed
staff from the Department of State (Department) and 18 Federal agencies, including the
Departments of Defense, Justice, Homeland Security, Treasury, and Health and Human Services.
The embassy occupies a secure 26-acre compound constructed in 1992 and had an operating
budget in FY 2013 of $18.6 million, with a foreign assistance request of $41.8 million. Since
2000, U.S. direct-hire positions have increased by 38 percent. The mission also supports an
International Law Enforcement Academy (ILEA) staffed by embassy employees and
Government of El Salvador employees to train police officials from countries throughout Latin
America.




                                        2
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



Executive Direction
Leadership

      The Ambassador anchors a well-integrated and productive mission committed to
improving lives in this poor and crime-plagued country. Her enthusiastic leadership in efforts to
make El Salvador a more secure and prosperous partner for the United States, combined with her
emphasis on teamwork and consensus decisionmaking, have fostered a motivated embassy staff
marked by a sense of common purpose.

       A noncareer appointee, the Ambassador has directed the mission for 3 years in two
separate tours interrupted by a hiatus when her initial recess appointment expired. Officials in the
Bureau of Western Hemisphere Affairs and other Washington agencies share the opinion of
mission personnel at all levels that she is well suited for and highly effective in El Salvador. Her
outgoing personality, fluent Spanish, and obvious concern for the welfare of the country resonate
with the public and give her entree into government, business, and social circles. The
Ambassador’s ties to the Salvadoran community in the United States, broad range of contacts in
U.S. Government agencies and institutions, and legal experience are assets to the embassy.

         The close relations she has developed with Salvadoran officials and the wide range of
contacts she has built in the private sector and civil society are vital to achieving U.S. objectives.
She has cultivated a high public profile and uses it intelligently. The Ambassador is a familiar
figure in obscure villages and Peace Corps outposts and takes pains to direct a public spotlight on
even the most modest projects supported by the embassy. She engages often and easily with the
local media. When advocating the painful steps necessary to achieve better government, security,
economic growth, and human rights, the Ambassador is blunt about the country’s challenges and
shortfalls, but also practical and encouraging about El Salvador’s future. Embassy employees
describe her as charismatic, inspiring, and supportive, and point to her as a source of positive
morale.

        The deputy chief of mission’s (DCM) personality and work style match the
Ambassador’s preference for vigorous and constant dialogue, easy access, and person-to-person
interaction. They form a supportive and focused partnership. The DCM has streamlined
decisionmaking and information-sharing to improve the speed and quality of paper flow. His
accessibility, light touch, and fairness have impressed the embassy community. He has dealt
quickly and decisively with a number of lingering management problems.

Strategic Objectives and Planning

       The centerpiece of U.S. engagement with El Salvador is the 5-year PFG initiative
announced by President Obama in March 2011, which provides a model for partnering with El
Salvador to promote sustainable and broad-based economic growth. The PFG foreign assistance
model focuses most program resources on two areas identified as the most significant obstacles
to economic advancement: poor security conditions and lack of competitiveness. The PFG
scorecard outlines specific goals and commitments by both partners. It is reviewed by the
embassy every 6 months to evaluate progress. The latest scorecard covers 20 joint objectives in
law enforcement, civil society, governance, and economic growth. The most recent review found

                                         3
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


15 goals on track and five behind schedule. Neither the Ambassador nor her team has illusions
about the difficult multi-year effort necessary to move ahead on society-changing goals, such as
combatting corruption and weaning gang members away from violence. To promote continued
high-level interest in the partnership, the Ambassador carefully tends to a network of
stakeholders in Washington agencies.

        All 19 agencies at the mission use PFG as a strategic blueprint for planning and action.
The scorecard and regular reviews provide a common framework for allocating resources,
coordinating responsibilities, and determining next steps. The PFG program and its scorecard
goals help embassy staff at all levels understand how their day-to-day work fits into broader U.S.
bilateral objectives.

        Although the PFG program serves as a benchmark for organizing embassy programs and
activities, the embassy needs to hold periodic missionwide examinations of overall U.S. aims in
El Salvador. The 2014-2016 Integrated Country Strategy was largely drafted by individual
sections, with limited reference to mission colleagues.

       Informal Recommendation 1: Embassy San Salvador should bring together all mission
       elements at least annually to discuss overall mission objectives, allocations of resources,
       and tactics.

Interagency Coordination

        The embassy’s committee structure is an effective and well-regarded coordination tool.
Meetings of the weekly country team and executive policy working group provide a platform for
the Ambassador to express her views and concerns to the community. Members of the law
enforcement group operate collegially, and their meetings serve to deconflict operations and
responsibilities. The Ambassador and the DCM schedule regular meetings with Department
section heads, agency heads, and management and section personnel. In addition, both preach
and practice an open door policy that employees correctly interpret as an invitation to consult.

Mission Growth

        Embassy San Salvador has grown 38 percent since 2000. The embassy’s ample physical
space makes it especially attractive to agencies seeking to grow in the region. Questions arose in
both Washington and the mission as to how much more expansion the current management and
security platforms can accommodate. Although scores for International Cooperative
Administrative Support Services (ICASS) demonstrate a high level of satisfaction with support
services, some sections, such as the regional security office, expressed concern they are reaching
the limit of what they can provide absent additional resources. OIG inspectors discussed with the
Ambassador and DCM the need for close scrutiny by all stakeholders of any additional staffing
requests.

Morale and Workplace Issues

       Morale is good throughout the embassy. Employees describe the Ambassador and the
DCM as patient listeners who consult broadly, ask questions before reaching a decision, and aim
for consensus. OIG inspectors advised the Ambassador that local employees and other staff had
                                        4
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


expressed interest in more frequent, direct contact to hear her policy priorities and to discuss
employment and personnel issues in informal settings.

       Informal Recommendation 2: Embassy San Salvador should schedule more periodic
       town hall meetings to allow the Ambassador to engage directly with embassy employees.

Mentoring of First- and Second-Tour Employees

         The Ambassador and DCM are attentive to the 30 first- and second-tour (FAST)
Department and USAID employees at post. In his first weeks, the DCM worked with the group
to develop a more useful mentoring and professional development training program. He meets
every other week with two coordinators elected by the FAST employees and schedules monthly
meetings with the group as a whole. The DCM recently arranged for an agency head to make the
first of what the DCM plans will be a series of presentations on different mission portfolios. The
DCM also hosted a lunch to stimulate group discussion on career and tradecraft issues. During
the last 2 years, the Ambassador has hosted several FAST-only events at her residence to allow
interaction with high-level visitors. FAST officers take notes in rotation at country team
meetings and accompany the Ambassador to selected public events. OIG inspectors provided the
DCM examples of best practices from other missions to use as models for the active program he
plans.

Representational Funds

        The embassy is not using representational funds as effectively as it could to develop
contacts and maintain useful relationships with counterparts at all levels. It recently established a
representation plan to distribute funds equitably among sections. Although the embassy
expended its FY 2013 representational funds consistent with regulations, it provided only $600
to the political and economic sections. Department of State Standardized Regulations 312
authorize representational funds for employees whose official positions entail responsibility for
establishing and maintaining relationships of value to the United States in foreign countries. The
OIG team supports the DCM’s emphasis on representational outreach as a priority for the
embassy sections.




                                         5
                            SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED



Policy and Program Implementation
Political Section

        The political section has positive synergy with the economic section. Officers in both
sections play key roles formulating objectives in the Mission Resource Request and the
Integrated Country Strategy.

        On arrival in 2013, the deputy political officer found neither a logical shared electronic
filing system nor an easy way to search files by topic. Similarly, biographic reporting had not
been centralized, and reports were located in different places in different formats. During the two
months prior to the inspection, the deputy political officer initiated projects to organize the
electronic filing system and centralize biographic files using the Department’s standard
Diplopedia format. Similar steps are planned on the classified system.

Reporting and Analysis

        The section has produced high-quality analytical reporting on Salvadoran political
parties, the judicial system, and the legislature, with many cables citing a wide variety of sources
to underpin the embassy’s analysis. The section’s reporting plan emphasizes the 2014
presidential elections and judicial and legislative institutions.

         Locally employed (LE) staff members analyze daily events and play a major role in
producing annual reports required by statute, including those on human rights, international
religious freedom, and trafficking in persons. The section has the additional duty of producing a
report every 18 months assessing country conditions for the Department of Homeland Security to
use in deciding whether to extend temporary protected status for Salvadorans in the United
States. 1

        To understand better the nuances of Salvadoran society, the section head invites officers
and LE staff from a variety of sections and agencies to regularly scheduled informal meetings
where participants exchange information and views on election-related political, social, and
cultural developments.

Economic Section

        The front office often turns to the economic counselor to draft cables that include
sensitive interactions with the Government of El Salvador. Washington agencies that work
closely with the economic section commented positively on its cooperative approach to working
with the interagency community and its access to Salvadoran sources. Most of the economic
section’s work focuses on PFG goals and the MCC’s second compact with El Salvador. It also
reports on economic trends and the country’s investment climate.

1
  8 U.S.C. § 1254a authorizes the Attorney General to designate eligible nationals from a foreign state for temporary
protected status, a designation that allows such nationals to remain in the United States and obtain work
authorization as long as the designation continues. About 212,000 Salvadorans reside in the United States under
temporary protected status.

                                             6
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The embassy has created a multi-agency economic/commercial/development working
group and a PFG working group. The working groups bring together participants from the
economic section, public affairs, USAID, the U.S. Commercial Service, the Foreign Agricultural
Service, and the Department of the Treasury to share information and assess progress on meeting
mission goals and objectives. The working groups provide a forum to coordinate efforts on
issues such as agriculture, advocacy for U.S. companies, intellectual property rights, and the
investment climate.

Leahy Vetting

        The Leahy amendment prohibits the use of foreign assistance funds to assist foreign
security forces where there is credible evidence they have committed gross human rights
violations. Leahy vetting determines whether there is such evidence prior to providing assistance,
and is an important part of the embassy's work. In 2013, embassy agencies and sections
submitted 2,500 names for vetting, about 10 percent of whom were deemed ineligible for
training. The political and economic section’s first-tour office management specialist handles all
vetting. This responsibility takes up 65 percent of her time, leaving insufficient time for other
duties and limiting her opportunities for professional development. An eligible family member
with appropriate language skills could handle this job.

Recommendation 1: Embassy San Salvador should hire and train a Spanish-speaking eligible
family member to manage Leahy vetting. (Action: Embassy San Salvador)

Records Management

         The political and economic sections do not use record emails to archive email
communication of significant policy interest. None of the officers had ever used record emails in
the course of their work. As outlined in the Foreign Affairs Manual (FAM), 5 FAM 443, officers
are expected to use record emails to retain communication of significant policy interest. The
failure to use record emails means that embassy products, such as weekly round-up emails and
analytical emails, are not accessible by interested U.S. Government consumers.

Recommendation 2: Embassy San Salvador should develop and implement procedures for the
use of working emails, record emails, and cables for communicating and reporting. (Action:
Embassy San Salvador)

       Informal Recommendation 3: Embassy San Salvador should provide online training to
       officers on how and when to draft record emails.

Foreign Assistance Oversight

        The embassy manages substantial bilateral foreign assistance programs from three main
sources of funding. The embassy requested $41.8 million in funds through State, Foreign
Operations, and Related Agencies appropriations for FY 2015, similar to previous years. These
funds are used by USAID, the Bureau of International Narcotics and Law Enforcement Affairs
and others to carry out their programs. MCC is the second funding source. El Salvador has
received $460.9 million in funds from MCC over the last 5 years and at the time of the
inspection was preparing to sign a $277 million follow-on compact. Third, El Salvador receives
                                        7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


foreign assistance from accounts other than traditional foreign assistance funds, such as
Department of Defense and Department of Labor funds. The classified annex to this report
contains additional information on these programs.

        Most foreign assistance activities fall under one of the PFG’s strategic goals. Given the
size and complexity of programs, however, and the absence of a comprehensive inventory of
assistance programs and regular front office reviews of them, there is a danger of duplication
among agencies. In some cases, the front office does not fully know of certain assistance
programs. For example, embassy personnel were unaware of the existence and purpose of a
Bureau of Democracy, Human Rights, and Labor grant for $717,000. Similarly, in August 2013
a Washington-based Department of Labor employee reviewed a $14 million Department of
Labor grant to help eliminate child labor, but embassy personnel did not receive a report or
feedback from the visit. The embassy has monitored another problematic $1 million grant from
the Department of Labor that may require more oversight by the parent agency. Embassy
employees, including the Ambassador, DCM, and acting political counselor, were not aware of
the status and purpose of a $250,000 grant from the Bureau of Political and Military Affairs. As
a result of the OIG inspection, embassy staff met with the implementer’s representative and
representatives of the Salvadoran military to discuss progress on the final steps of the grant. The
programs noted above support mission goals, but closer coordination between Washington-based
program managers and the mission is necessary to ensure that programs are monitored properly,
align with policy goals, and do not duplicate other activities.

Recommendation 3: Embassy San Salvador should centralize information on all foreign
assistance activities and designate who is responsible for monitoring each program and aligning
program activities with embassy goals and objectives. (Action: Embassy San Salvador)

Grants Management

        There are no trained grants officer representatives in the embassy to oversee foreign
assistance programs. Grants Policy Directive 16 requires the appointment of trained grants
officer representatives to oversee grants of $100,000 and above. The public affairs section
administers a number of such grants, including $115,000 to the San Salvador Binational Center
and $100,000 from the Ambassadors Fund for Cultural Preservation. The International Narcotics
and Law Enforcement (INL) section oversees two grants in excess of $2 million for gang
resistance training. Because employees have not taken required grants management training, they
may not be aware of their responsibilities to monitor grantee performance and finance.

Recommendation 4: Embassy San Salvador should identify Department grants in the mission
with a value of $100,000 or more and provide required grants management training to employees
designated as grants officer representatives. (Action: Embassy San Salvador)

International Narcotics and Law Enforcement Section

        The INL section, which opened in 2012, is progressing well. The INL director has
focused on setting up the new office, hiring LE staff, and implementing standard operating
procedures. The director has established good relationships with embassy law enforcement
offices and coordinates appropriately within the embassy and with the Salvadoran Government.
Since 2008, the Bureau of International Narcotics and Law Enforcement Affairs has allotted
                                        8
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


$47.1 million, primarily through CARSI, to support law enforcement programs. Fourteen of the
19 PFG goals for El Salvador pertain to crime and security. With the exception of a money
laundering initiative, most programs are meeting performance goals.

         The INL section reports significant funds that have not been subobligated for assistance
purposes (“pipeline funds”). Subobligation refers to the commitment of U.S. Government foreign
assistance funds, usually under the terms of a bilateral letter of agreement. As of September 30,
2013, the INL section reported $20.26 million in funds that had not been subobligated.
Embassies typically receive funding for INL programs in the last weeks of the fiscal year and
sign a letter of agreement with host countries to obligate funding. Funds are then available in the
next fiscal year for subobligation. Delays in committing funds can result from problems in
procurement, grants, or project development processes. They can also reflect delays in
negotiating specific project parameters with the host government. The INL financial
management handbook requires embassies to subobligate funding within one fiscal year of the
letter of agreement’s signature. The bureau has approved Embassy San Salvador’s request to
extend subobligation dates for its pipeline funds. Embassy San Salvador has an internal plan that
appears viable for committing CARSI and Regional Gang Initiative pipeline funds within an
acceptable timeframe. Some delays can be attributed to the opening of the office and associated
building of administrative capacity.

International Law Enforcement Academy

        Embassy San Salvador hosts an ILEA that annually trains about 1,500 mid-career law
enforcement officers from countries throughout Latin America. ILEA doubled the number of its
trainees over the last 5 years and substantially increased its operating budget to $5.1 million
annually during the same period. Completion of the San Salvador campus in 2013, built at a cost
of $14 million, concluded the final phase of San Salvador ILEA construction. INL internal
evaluations indicate generally successful performance by course instructors. The curriculum
consists of core police training courses, supplemented by specialized offerings such as
community policing, trafficking in persons investigations, and anti-gang courses, typically taught
by U.S.-based instructors from Federal law enforcement agencies.

International Law Enforcement Academy Pipeline Funds

        The current pipeline of funds that have not been subobligated for travel and training
purposes is excessive. San Salvador ILEA reports $9.2 million in pipeline funds from FY 2008 –
12, equivalent to about 2 years’ operating expenses at current levels. Additional funds will be
released later in the fiscal year. San Salvador ILEA requested permission by cable (13 San
Salvador 1252) to extend the expiration date for its pipeline funds by an additional year. Because
the San Salvador ILEA training facility is operating near capacity and was forced to cancel
courses during the Federal government shutdown, it is not clear that it will be able to spend down
the pipeline without additional program activities, none of which have been identified. As noted,
the INL financial management handbook requires that INL project funds be subobligated within
a year of signing a letter of agreement with the host government. If ILEA San Salvador cannot
make productive use of funds, they likely can be redirected to other priorities. Decisions about
whether to reprogram funds require policy guidance from INL and, potentially, congressional
notification.

                                        9
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 5: The Bureau of International Narcotics and Law Enforcement Affairs
should review the San Salvador International Law Enforcement Academy’s balances, with
particular attention to funds that have not been subobligated, and reprogram them as appropriate.
(Action: INL, in coordination with Embassy San Salvador)

Public Affairs Section

         The public affairs section’s highest priority goals are in tandem with embassywide
themes of increasing educational opportunities for at-risk youth, rule of law, good governance,
improving the business climate, and entrepreneurship. The section also supports PFG goals with
its traditional press contact work as well as through public outreach and exchange programs.

Cultural Affairs Office

        The cultural affairs office manages professional and academic exchanges and works well
with Washington support offices. The exchanges take place in the framework of the 100,000
Strong Latin American initiative launched by the White House in March 2011 to boost regional
academic exchanges. The office plans to add 20 more exchange slots in FY 2014 and has
nominated a slate of 11 international visitors for FY 2014 in fields such as youth leadership,
higher education, small business development, and grassroots democracy. The office’s Fulbright
academic exchanges tilt toward Salvadoran participants, with 15 graduate students and scholars
studying in the United States and only five Americans coming to El Salvador in FY 2013. The
International Visitor Leadership Program above could also include a group of security experts,
lawyers, or police officials in support of PFG goals.

       The office received only six applications for two slots in the Teacher Excellence and
Achievement program, and only 30 applications for 11 slots in the student and teacher exchange.
The Department sponsors both programs to promote educational and cultural understanding. The
OIG team counseled the public diplomacy officers on ways to boost the number of exchange
applications with more aggressive recruitment efforts, now chiefly conducted via social media
and ad hoc visits to institutions and schools.

        The office includes a full-time LE employee who administers a program of speaking
engagements by embassy officers. These talks have focused exclusively on cultural or mutual
understanding themes such as American holidays and sports, and not on PFG themes such as
citizen security and rule of law. The embassy staff includes many experts in personal and cyber
security who could reach out to Salvadoran social media users.

       Informal Recommendation 4: Embassy San Salvador should broaden exchanges and the
       speaker program to focus on Partnership for Growth crime and security themes.

Media Office

        The media unit is in charge of press engagement and effectively represents embassy
activities to the Salvadoran media. The unit prepares a daily media summary in Spanish each
morning that includes print and television summaries. This product is distributed mid-morning,
although the front office and reporting sections require a news summary at the opening of
business. The political section consequently prepares its own product, which essentially
                                       10
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


duplicates the public affairs section’s effort. The media office’s news summary could be
abbreviated to meet an earlier deadline, allowing time for a more complete product later in the
day. In addition, not all end users read Spanish, and the public affairs section should include an
English summary for Washington consumers.

Recommendation 6: Embassy San Salvador should prepare a single daily news summary that
meets the respective needs of embassy and Washington clients. (Action: Embassy San Salvador)

Information Resource Center

        The Information Resource Center does a satisfactory job reaching audiences in
journalism, politics, and academia, but could do more to publicize its research capabilities to
customers within the embassy, particularly new employees who might be unaware of the center’s
resources. It has not conducted an open house or other informational session for internal
customers in several years.

       Informal Recommendation 5: Embassy San Salvador should hold periodic open houses
       to publicize the Information Resource Center’s products and services.

Social Media

        Since launching its social media platform in 2010, the public affairs section has made
rapid progress. According to a recent local study, there are 2.2 million Facebook users in El
Salvador—about two users for every computer in the country. The embassy hired a Salvadoran
contractor to expand its Facebook base, which has jumped to 48,000 from 15,000. The Bureau of
International Information Programs boosted this effort by selecting the section for the 20/100
campaign to double the size of the social media audience. The section also has developed a
social media calendar, shared with USAID, to coordinate the timing of Facebook uploads. The
media office also sponsors a Twitter feed to reach journalists. Some 73,000 users follow the
section’s tweets.

Staffing

        Because of the Department’s hiring slowdown, the section was unable to fill an LE staff
position to manage budget, grants, and procurement. Instead, the embassy appointed an eligible
family member to the position. The position typically requires several years of experience to
become fully proficient in public diplomacy and grants. The team counseled the public affairs
officer to seek opportunities to train the eligible family member in handling public diplomacy
grants and financial management.

Consular Section

        The consular section is a medium-sized operation. Nonimmigrant visa workload is
relatively stable, but American citizen services is growing as Salvadoran-American retirees
return home and swell demand for passports and Federal benefits. Immigrant visa demand has
been growing rapidly for several years, straining space and personnel resources. The embassy is
already one of the top five immigrant visa processing posts in the Western Hemisphere.
Increases in visa demand and attendant fraud prevention work have been met to date with
                                       11
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


makeshift and unsuitable local redesign projects to create more space. Only additional, purpose-
built workspace will meet worldwide standards for secure and efficient processing and customer
service.

        Three of the section’s five American managers arrived less than 2 months before the start
of the inspection. New management was in the midst of reviewing processes and making
adjustments to improve productivity and customer service. Their changes had already eliminated
some artificially restrictive criteria for nonimmigrant visa adjudication, facilitated the flow of
both immigrant and nonimmigrant visa applicants, reduced backlogs of immigrant visa cases
awaiting final review, and refocused attention on resolving visa reciprocity discrepancies
between the United States and El Salvador.

        Over time, several management control tasks have devolved to the three unit chiefs,
despite their already heavy adjudication and oversight responsibilities. The new visa
chief/section deputy is taking over many of these responsibilities, including consular shared
tables administration, accountable consular officer duties, and coordination of the visa referral
program. This updated division of labor has potential to free up resources for client services,
increase the time available for adjudication review, and reinforce senior attention to management
controls.

       The entire consular staff, from the most experienced officers to the newest local hires, is
motivated, well trained and managed, and goal-oriented. The section has a model cross training
program for LE staff: every nonsupervisory local employee rotates approximately every 2 years
and can be assigned to work on tasks that require extra support.

Space

       The OIG’s 2006 inspection 2 recommended a construction project to address the section’s
space deficiencies. Those problems remain and have been exacerbated by a doubling of the
immigrant visa workload in the interim. [Redacted] (b) (5)
                                                                 The embassy identified a
requirement for a consular construction project even before the 2006 inspection, but the
Department has not funded it.

          [Redacted] (b) (5)
                                                                                      Four
nonimmigrant visa clerks work several hours each day in a container in the outdoor visa waiting
area because there is insufficient window space inside the section. Wheelchair customers have to
be hoisted to the fingerprint collection counter because there is no handicapped-accessible
interview window. The fraud prevention and correspondence units are located outside the
consular section. Because neither unit has a full-time American supervisor, their physical
separation from the rest of the section affects oversight, coordination, and efficiency. Only two-
thirds of the immigrant visa officers can adjudicate applications at the same time due to lack of
window space, affecting the section’s ability to schedule applicants in the required timeframe.
The number of American citizens services interview windows and the small waiting room limit

2
    Report of Inspection, Embassy San Salvador, El Salvador, Report No. ISP-I-06-31A, May 2006.

                                             12
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


the number of available appointments that unit can allocate. The unit has appropriated an unused
receptionist window in the main embassy foyer, but this temporary solution affords customers no
privacy and was not designed for full-time use.

        The consular section had already outgrown its space when the new embassy compound
was occupied in 1992. Even modest U.S. immigration reform in the next few years, added to the
average immigrant visa growth of approximately 15 percent every 2 years, will overwhelm the
section unless there is an increase in the number of windows and in employee work space.
Section management has identified redesign and construction priorities to address workflow,
security, and processing deficiencies to the Bureau of Consular Affairs. In the short term, the
emphasis is on adding four interview window, including one that is wheelchair-accessible, and at
least one privacy booth within the existing hardline area. In the medium term, construction of a
small annex adjacent to the current section would address oversight and communication
problems, provide additional interview windows, and free up visa processing space. The Bureau
of Consular Affairs is receptive to the section’s space needs. The OIG team concurs with
Embassy San Salvador’s approach to address the section’s most urgent needs immediately. (The
classified annex to this report provides additional details on the exterior screening and fraud
interview space issues.)

Recommendation 7: The Bureau of Overseas Buildings Operations, in coordination with the
Bureau of Consular Affairs, should implement Embassy San Salvador’s short-term consular
space plan before the end of FY 2014. (Action: OBO, in coordination with CA)

Recommendation 8: The Bureau of Overseas Buildings Operations, in coordination with the
Bureau of Consular Affairs, should review the consular section’s medium-term space needs,
determine whether construction of an annex is feasible, and establish an appropriate timeline.
(Action: OBO, in coordination with CA)

Efficiency

        Although the section is well organized and provides all essential services, management is
eager to increase efficiency. It plans to improve the Web site, upgrade standard operating
procedures, and train new locally hired staff. The OIG team identified additional areas where
efficiencies might free up resources to handle workload increases.

        Many immigrant visa applicants appear for interviews without having seen a panel
physician. In such cases, the interviewing officer has to refuse the visa pending medical results.
Even if the eventual results do not indicate significant problems, filing, retrieving, and reviewing
cases rather than processing them to conclusion at the initial visit is inefficient. If there is a
medical problem that affects visa eligibility, applicants have to be re-interviewed and might have
to obtain new financial documentation. There appear to be enough panel physicians to handle the
workload, so it is unclear why so many applicants arrive without medical exams.

       Informal Recommendation 6: Embassy San Salvador should determine why many
       immigrant visa applicants lack medical examination results at the time of their interviews
       and take steps to rectify the situation.


                                       13
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The American citizens services unit’s emergency telephone number appears on the
embassy Web site so that Americans can contact the unit at any time in case of death, arrest, or
other life and safety situations. Because it is the only consular number listed on that site, the
telephone rings throughout the work day with routine questions about citizen services and visa
operations that are addressed on the Web site or through a visa call center. This situation detracts
from the efficiency of the American citizens services unit and also can prevent emergency calls
from being answered expeditiously.

       Informal Recommendation 7: Embassy San Salvador should clarify on its Web site
       what constitutes an emergency and indicate how clients can obtain non-emergency
       information, update its American citizens services phone tree, and identify limited non­
       emergency citizens services telephone hours.

        The section includes five part-time eligible family members who provide a range of
services, including biometrics collection, visa printing, and fraud unit assistance. There has not
been a concerted effort to maximize the potential of these eligible family members, to identify a
range of responsibilities other than biometrics collection that require their clearance and skills
level, or to develop a training and rotation program.

       Informal Recommendation 8: Embassy San Salvador should include eligible family
       members in the consular section’s training, development, and rotational plan as
       appropriate.




                                       14
                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


Resource Management

Agency                                U.S.      U.S.    Foreign    Total   Total Funding
                                     Direct-   Local-   National   Staff     FY 2013
                                      Hire      Hire     Staff
                                      Staff    Staff
Department of State
Consular                                  13        5        22       40      $1,416,730
Diplomatic Security                        6        2         9       17        $805,698
Diplomatic Program                        14                  6       20      $1,762,718
ICASS                                     13       14       126      153      $9,102,100
International Law Enforcement
Academy                                    1                           1
Narcotics and Law Enforcement              3                 17       20     $46,857,519
Public Affairs Section                     3                 11       14      $1,001,044
Marine Security                           12                  4       16        $135,950
Representation                                                                   $25,799
Overseas Buildings Operations                                                 $1,820,858
Department of Agriculture
Foreign Agricultural Service               1                  2        3        $179,094
Department of Commerce
U.S. Commercial Service                    3                  6        9
Department of Defense
Army Corps of Engineers                    1                  3        4
Defense Attaché Office                     5                  3        8        $293,590
Force Protection Detachment                3                  1        4
Military Group                             6                  8       14
Office of Defense Cooperation                                          0
Tactical Analysis Team                     1                           1
MCC                                                           3        3        $245,439
Department of Health and Human
Services
Centers for Disease Control and
Prevention                                                    1        1
Department of Justice                      1                  1        2
Bureau of Alcohol, Tobacco, and
Firearms                                   2                  2        4
Drug Enforcement Administration            3                           3
Federal Bureau of Investigation            5                           5
Department of Homeland Security
U.S. Citizenship and Immigration
Services                                   2                  3        5        $280,388
Enforcement and Removal Operations         1                           1
Homeland Security Investigations           2                  3        5

                                    15
                        SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Peace Corps                                            2                        4          6
Department of Treasury                                                                     0
Office of Technical Assistance                         2                        1          3
USAID                                                                                              $45,233,306
Program Staff                                        21           1           73         95
Regional Inspector General                            8          22            5         35
Totals                                              134          44          314        492      $109,160,233

Management Section

        The management team successfully provides services to a large embassy staff. For 2012
and 2013, ICASS scores exceeded 4.0 on a 5-point scale in 26 of 29 management categories.
Three management categories—LE staff human resources, procurement, and leasing—were
slightly lower than 4.0. The majority of scores were higher than worldwide averages. On OIG’s
questionnaire, information management was the only service that scored below average.
Communication among management units is effective and office morale is good, although a 3­
year wage freeze and suspension of incentive awards has negatively affected LE staff morale.
Nevertheless, staff attrition is low. Management controls are in place and working properly in
management units.

        The management section has 16 unfilled LE staff positions. Under current sequestration
guidance, 3 hiring is limited to one new hire for every two vacancies, which allows a maximum of
eight LE staff positions to be filled. The management officer identified seven LE staff positions
that are critical to operations. The embassy is awaiting approval from the Bureau of Western
Hemisphere Affairs to fill them. In the interim, the embassy prudently filled LE staffing gaps
with eligible family members, who are not subject to the hiring limitation. The management
section employs 15 eligible family members.

Rightsizing

        Since the 2006 OIG inspection report, direct-hire staffing has grown by 39 positions: 4
from the Department and 35 from other agencies. Staffing growth has been in line with
projections from the last analysis by the Office of Rightsizing, prepared in 2010. To date, U.S.
direct-hire staffing increases have had limited impact on the management section’s ability to
provide services, though resources are stretched thin, and additional growth is likely to outstrip
the embassy’s ability to provide quality services.

        The embassy has complied with State-USAID Joint Management Council guidance that
mandates consolidation of motor pool, housing, and household furniture and appliance cost
centers. USAID maintains its own human resources, financial management, and information
technology staff, which are exempt from the consolidation mandate. The embassy implemented
an interagency furniture and appliance pool in 2012. There are 18 subscribers. Nineteen agencies
are exempt and did not join the pool. To increase efficiency, since January 2013 the embassy has


3
 In March 2013, the Department instituted a hiring slowdown for local employees (13 State 30462), including a
policy limiting the filling of vacant positions for certain employee categories.

                                           16
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


required approved NSDD-38 positions to subscribe to the furniture and appliance pool if the
agency is signed up for the housing pool.
Financial Management

        The financial management office provides good customer service and financial support,
including accounting, budgeting, cashiering, vouchering, and payroll services. The OIG team
found no anomalies in cashier operations, funds management, premium travel, unliquidated
obligations, suspense deposit accounts, accounts receivable, and outstanding advances. Current
staffing is sufficient to meet customer needs and provide necessary oversight.

Post Support Unit Usage

         The financial management office outsources travel vouchers to the Comptroller and
Global Financial Services’ Post Support Unit but does not outsource other types of vendor
payments. The embassy’s average cost to process a financial strip code is $20.60; the Post
Support Unit charges $12 per strip code. Department guidance makes outsourcing voucher
processing optional and leaves the decision to embassy management. The financial management
staff is reluctant to expand Post Support Unit usage because of the time involved preparing
documents for electronic transfer to the unit for processing. Increased use of the support unit is
one of the Department’s Top 8 Global Management Priorities to lower ICASS costs and increase
efficiency.

Recommendation 9: Embassy San Salvador should prepare a cost-benefit analysis to determine
whether outsourcing voucher processing to the Post Support Unit would result in cost savings,
and share the results with the mission’s Interagency Cooperative Administrative Support
Services council. (Action: Embassy San Salvador)

Voucher Processing Efficiency

        The voucher unit has an annual workload of approximately 10,600 transactions or strip
codes. Financial strip codes are the workload metric ICASS uses to distribute the costs of
providing voucher services to interagency customers. Each voucher examiner at Embassy San
Salvador processes approximately 1,900 strip codes per year. This number is well below the
worldwide average of 2,224 strip codes per examiner and below the level of other embassies in
the region. The most efficient embassy in the region processed nearly twice as many vouchers as
Embassy San Salvador, for example. The unit could achieve greater efficiency by comparing its
voucher processing procedures with more efficient embassies in the region and adopting their
best practices.

       Informal Recommendation 9: Embassy San Salvador should solicit input from other
       embassies to determine the most efficient procedures for processing vouchers and revise
       its voucher processing procedures to reflect those findings.

Cellular Telephone Usage

       Embassy policies on cellular telephones and BlackBerry devices do not comply with
Department regulations. The embassy permits personal long-distance calls on embassy devices
and then seeks reimbursement contrary to guidance in 5 FAM 523.1 that prohibits personal long­
                                       17
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


distance calls on embassy devices. The regulation has been in place since 2011 but the embassy
has not enforced it. The embassy also permits unlimited personal local calls and then seeks
reimbursement. Guidance in 5 FAM 511 and 5 FAM 522 place limits on the usage of U.S.
Government telecommunications equipment and services for personal calls. Occasional local
calls are permitted if they do not result in additional charges to the U.S. Government and do not
interfere with work.

        One result of noncompliance is that the financial management office spends too much
time and money collecting reimbursements. In 2012, it sent approximately 486 collection bills
for personal and long-distance phone calls. One voucher examiner spends approximately 25
percent of his time sending bills. In FY 2012, the financial management office spent
approximately $13,500 to bill $13,164 in personal and long distance cellular telephone calls, not
including the cashier’s time to collect reimbursements.

Recommendation 10: Embassy San Salvador should issue a management notice outlining
Department policy concerning use of government telecommunications equipment for long-
distance calls and personal use. (Action: Embassy San Salvador)

International Cooperative Administrative Support Services Council

       ICASS council meetings are professional, collaborative, and without significant disputes.
The council is in the process of establishing a budget committee.

Human Resources Office

        The human resources office serves American and LE staff well. For the past 2 years, the
embassy has had a U.S. direct-hire human resources officer. The Department will not fill this
position after the incumbent departs in 2014. The embassy asserts that it needs this position for
continuity, in part because the senior LE position in the office has been vacant for 18 months.
The Department has proposed transferring responsibility to a regional human resources officer
based at the Florida Regional Center in Fort Lauderdale. The OIG team agrees with the embassy
that the LE staff position should be filled. It also agrees with the Department that the officer
position can be filled by an employee assigned to the Florida Regional Center.

Duty Officer Program

        Embassies are required to appoint American employees to answer after-hours inquiries
and respond to emergencies. More than 40 officers and staff from other agencies do not serve as
embassy duty officers, placing an undue burden on Department and USAID personnel. On the
most recent duty roster, 20 percent of the duty officers were entry-level officers from one
embassy unit, and more than half were USAID employees. Several employees served as duty
officers three times a year. The embassy has not done an analysis of why exempted offices
should not share duty officer responsibilities as they do at many other embassies.

Recommendation 11: Embassy San Salvador should review the duty logs of offices and
agencies exempted from participation in the embassy duty officer program and broaden the duty
officer roster appropriately. (Action: Embassy San Salvador)

                                       18
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Many duty calls involve American citizen emergencies. In the worst cases, the duty
officer calls the American citizens services chief or another designated consular officer. The
number of cases referred to the consular officer would decrease if all duty officers completed the
duty officer training program. Few do so, and not all duty officers request briefings from the
American citizens services unit, as required, before they assume duty. Some do not enter any
data, including their names and dates of duty, in the duty log.

       Informal Recommendation 10: Embassy San Salvador should require duty officers to
       complete appropriate training.

       Informal Recommendation 11: Embassy San Salvador should appoint one office to
       review duty log entries and report to the front office those officers who do not document
       their activities while serving as duty officer.

Locally Employed Staff Position Classification

        The human resources office has a backlog of 12 positions awaiting classification. This
backlog occurred because of staff vacancies in the human resources office. A human resources
assistant now spends about 75 percent of her time on position classification. Since 2010, the
human resources assistant has classified 109 positions.

        The human resources office could outsource its position classification services to one of
the Department’s regional centers for faster processing. Outsourcing could also help prevent
grade creep and minimize the conflict of interest inherent in classifying LE staff positions
locally. Since 2009, four regional bureaus have outsourced local position classification to the
Frankfurt Regional Center, which now performs position classification services for 56
embassies. In addition to cost savings, regional position classification results in more uniform
and consistent outcomes, reduced staffing levels, and fewer burdens on embassy human
resources staffs.

        The Florida Regional Center based in Fort Lauderdale provides limited classification
services to some Bureau of Western Hemisphere embassies. The center does not have the staff or
capacity to take over Embassy San Salvador’s position classification duties. The Bureau of
Western Hemisphere Affairs estimates that it would need six to nine U.S. direct-hire positions to
provide regional position classification services for its 29 embassies, which may make Frankfurt
a better option.

Recommendation 12: Embassy San Salvador, in coordination with the Bureau of Western
Hemisphere Affairs, should conduct a cost-benefit analysis to determine whether outsourcing
local position classification to a regional center in Frankfurt or Fort Lauderdale would result in
cost savings or increased efficiency, and implement the lower cost option. (Action: Embassy San
Salvador, in coordination with WHA)

Locally Employed Staff Handbook

       The LE staff handbook was last updated in 2009 and does not reflect current local labor
laws. Human resources staff started a handbook update in 2012 but could not complete the task
because of staffing shortfalls. The handbook update is now in the final stages and a local attorney
                                       19
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


is reviewing the draft. LE staff handbooks should be kept current and explain conditions of
employment, ethical standards, and disciplinary processes, including termination. Absent
accurate policies and procedures, American and LE staff might disseminate and work with
incorrect information.

       Informal Recommendation 12: Embassy San Salvador should complete the update of its
       locally employed staff handbook to reflect current conditions of employment, ethical
       standards, and disciplinary processes.

Locally Employed Staff Committee

        Mission management maintains a good dialogue with the LE staff committee. The DCM
met with the committee his first week on the job. LE staff concerns include freezes on wages,
allowances, and awards, as well as special immigrant visa policies, the Equal Employment
Opportunity (EEO) program, hiring, and the mandatory retirement age. Embassy management is
taking appropriate action with the Department to address these concerns where possible.

Equal Employment Opportunity

        Several EEO issues in the mission over the past year required use of EEO channels and
led to the Ambassador’s personal involvement in EEO outreach and education. The four trained
EEO counselors, two LE staff liaisons, and the Federal Women’s Program coordinator take their
roles seriously. Notices describing the EEO program and listing designated EEO counselors are
posted throughout the embassy.

General Services

        The general services unit delivers good customer service, a notable achievement given
that 20 percent of its positions are vacant because of Department limits on hiring new LE staff.
Two American officers divide general services duties and supervise 55 LE staff members.

       The property management unit manages an inventory valued at $10.4 million. The unit
has developed standard procedures and controls accountable property using correct procedures.
In FY 2013, the unit did not submit the required certification of inventory reconciliation on time
because of warehouse staff shortages, problems using the asset management system, and
confusion about the location of accountable property in the information management office.
Motor pool, shipping, and procurement operations work well.

Facilities Maintenance

        The facilities maintenance unit effectively maintains five government-owned buildings
on the 26-acre embassy compound. The properties, including the chancery, chief of mission
residence, DCM residence, and Marine house, are in good condition. The unit receives excellent
ICASS scores for building maintenance and average marks for residential maintenance. The unit
is operating with two unfilled positions and expects the departure of two more LE staff members
in coming months. In FY 2013, the section completed 5,389 work orders, tracking and
processing them efficiently. [Redacted] (b) (5)

                                       20
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5)                The facilities maintenance officer is exploring options to
address office space issues.

Safety, Health, and Environmental Management

        The occupational health and safety program complies with Department regulations. The
Office of Safety, Health, and Environmental Management conducted its last site visit in
December 2010. Its safety report identified 25 deficiencies; all but two recommendations have
now been closed. Pending projects include the relocation of several warehouse panels and the
installation of a $30,000 system to reduce the risk accidental falls.

Information Management

        Although the workload of the information management and information security
program has grown, staffing has remained unchanged over the past several years. The
information management team does not have the resources to expand and automate services. The
information management officer requested two additional LE positions in the FY 2014 Mission
Resource Request. At that time, a number of issues, such as the alternate command center and
physical infrastructure, had been neglected by previous management.

         The information management office participated in the pilot phase of the Information
Technology Transformation Initiative to consolidate Department and USAID information
networks. This initiative was projected to yield $114,000 in bandwidth and server cost reductions
but has been suspended pending Washington review. In the meantime, USAID is migrating to a
virtualized desktop environment that may make the concept unnecessary. Other initiatives
include installing computers at ILEA, establishing a Foreign Service Institute adjunct training
facility, and modernizing physical infrastructure for classified information programs.

       The inspectors identified help desk management, laptop security, SharePoint site content,
and diplomatic note archiving as areas for improvement.

Project Management

        Project planning is weak. For example, the office deploys operating system software
upgrades inefficiently. The office gives each computer technician 48 hours to perform an
upgrade on two workstations, rather than the standard 90 minutes per workstation. The
information management office has not developed standard operating procedures for project
planning, scheduling deployments, or monitoring resources, as required by 5 FAM 864 and 5
FAM 121.3. In part, project planning deficiencies stem from the lack of an American employee
to oversee unclassified systems operations.

Recommendation 13: Embassy San Salvador should establish project plans, deployment
schedules, and standard operating procedures in the information management office. (Action:
Embassy San Salvador)




                                       21
                           SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5)




           SharePoint Site

                  The embassy’s internal SharePoint site is incomplete and does not contain pertinent
           information. For example, strategic planning information and emergency preparedness
           documents are not prominently displayed on the main page.

                     Informal Recommendation 14: Embassy San Salvador should update its SharePoint site.

           Diplomatic Notes Registry

                   Diplomatic notes are official correspondence between an embassy and the host
           government. Embassy San Salvador does not maintain copies of incoming and outgoing
           diplomatic notes consistent with records management requirements in 5 FAH-1 H-611h. It has
           developed an electronic database that assigns note numbers but does not store copies of the
           notes. In the absence of complete records, important correspondence is not preserved, and
           embassy business may be hampered.

                     Informal Recommendation 15: Embassy San Salvador should issue a management
                     notice designating offices authorized to issue diplomatic notes and requiring retention of
                     all incoming and outgoing notes, consistent with records management regulations.




                                                    22
                                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Quality of Life

        Overall morale is good. U.S. employees receive a 10 percent post allowance, a 15 percent
hardship differential, and two rest and recuperation trips in a 3-year tour. San Salvador has good
housing, restaurants, medical care, schools, and shopping. The region has abundant travel and
sightseeing opportunities, cultural activities, and sporting options. Negative factors include
heavy traffic, pollution, night-time driving restrictions, and violent crime.

Community Liaison Office

       The community liaison office operates a robust and popular program. The office
organizes a large number of activities, events, and social outings that meet the needs of a diverse
embassy community. The coordinator participates in the emergency action committee, country
team, housing board, recreation association board, and the employment committee. The
American employee association funds community liaison office-sponsored trips and activities.

Schools

       U.S. direct-hire dependents are enrolled in four schools. Parents are generally satisfied
with the quality of education. In April 2013, the Department’s regional education officer visited
each school, observed operations, and met with administrators, teachers, school board members,
and students. The regional education officer made recommendations to improve parent and
student integration into the mostly Salvadoran student social structure.

Health Unit

        The health unit provides good service. It receives strong support from the front office and
management section. The health unit has sufficient resources, with a regional medical officer, a
part-time doctor, two part-time nurses, and a receptionist. A regional medical officer supports the
medical programs of embassies in Central America and Jamaica. A regional psychiatrist based in
Bogota provides mental health care.

American Employees Association

        The association has a strong financial position and ample cash reserves. In 2012, the
association had a profit of $172,000. Except for food services, all cost centers are profitable. In
January 2012, the Bureau of Administration, Office of Commissary and Recreation Affairs,
conducted a review and found no deficiencies. The board of directors, general management, and
the management counselor meet monthly. The association has an in-house accountant and
employs an outside financial consultant to review the books monthly and provide a statement and
report. The association meets all Department reporting requirements.




                                       23
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Management Controls
        The annual chief of mission management controls statement of assurance was signed on
July 8, 2013. This evaluation of management controls provided reasonable assurance that there
were no material weaknesses or reportable conditions. The statement of assurance identified and
reported a list of safety, health, and environmental management issues discussed in this report.




                                       24
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



List of Recommendations

Recommendation 1: Embassy San Salvador should hire and train a Spanish-speaking eligible
family member to manage Leahy vetting. (Action: Embassy San Salvador)

Recommendation 2: Embassy San Salvador should develop and implement procedures for the
use of working emails, record emails, and cables for communicating and reporting. (Action:
Embassy San Salvador)

Recommendation 3: Embassy San Salvador should centralize information on all foreign
assistance activities and designate who is responsible for monitoring each program and aligning
program activities with embassy goals and objectives. (Action: Embassy San Salvador)

Recommendation 4: Embassy San Salvador should identify Department grants in the mission
with a value of $100,000 or more and provide required grants management training to employees
designated as grants officer representatives. (Action: Embassy San Salvador)

Recommendation 5: The Bureau of International Narcotics and Law Enforcement Affairs
should review the San Salvador International Law Enforcement Academy’s balances, with
particular attention to funds that have not been subobligated, and reprogram them as appropriate.
(Action: INL, in coordination with Embassy San Salvador)

Recommendation 6: Embassy San Salvador should prepare a single daily news summary that
meets the respective needs of embassy and Washington clients. (Action: Embassy San Salvador)

Recommendation 7: The Bureau of Overseas Buildings Operations, in coordination with the
Bureau of Consular Affairs, should implement Embassy San Salvador’s short-term consular
space plan before the end of FY 2014. (Action: OBO, in coordination with CA)

Recommendation 8: The Bureau of Overseas Buildings Operations, in coordination with the
Bureau of Consular Affairs, should review the consular section’s medium-term space needs,
determine whether construction of an annex is feasible, and establish an appropriate timeline.
(Action: OBO, in coordination with CA)

Recommendation 9: Embassy San Salvador should prepare a cost-benefit analysis to
determine whether outsourcing voucher processing to the Post Support Unit would result in cost
savings, and share the results with the mission’s Interagency Cooperative Administrative Support
Services council. (Action: Embassy San Salvador)

Recommendation 10: Embassy San Salvador should issue a management notice outlining
Department policy concerning use of government telecommunications equipment for long-
distance calls and personal use. (Action: Embassy San Salvador)

Recommendation 11: Embassy San Salvador should review the duty logs of offices and
agencies exempted from participation in the embassy duty officer program and broaden the duty
officer roster appropriately. (Action: Embassy San Salvador)

Recommendation 12: Embassy San Salvador, in coordination with the Bureau of Western
Hemisphere Affairs, should conduct a cost-benefit analysis to determine whether outsourcing
                                       25
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


local position classification to a regional center in Frankfurt or Fort Lauderdale would result in
cost savings or increased efficiency, and implement the lower cost option. (Action: Embassy San
Salvador, in coordination with WHA)

Recommendation 13: Embassy San Salvador should establish project plans, deployment
schedules, and standard operating procedures in the information management office. (Action:
Embassy San Salvador)




                                       26
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy San Salvador should bring together all mission
elements at least annually to discuss overall mission objectives, allocations of resources, and
tactics.

Informal Recommendation 2: Embassy San Salvador should schedule more periodic town hall
meetings to allow the Ambassador to engage directly with embassy employees.

Informal Recommendation 3: Embassy San Salvador should provide online training to
officers on how and when to draft record emails.

Informal Recommendation 4: Embassy San Salvador should broaden exchanges and the
speaker program to focus on Partnership for Growth crime and security themes.

Informal Recommendation 5: Embassy San Salvador should hold periodic open houses to
publicize the Information Resource Center’s products and services.

Informal Recommendation 6: Embassy San Salvador should determine why many immigrant
visa applicants lack medical examination results at the time of their interviews and take steps to
rectify the situation.

Informal Recommendation 7: Embassy San Salvador should clarify on its Web site what
constitutes an emergency and indicate how clients can obtain non-emergency information,
update its American citizens services phone tree, and identify limited non-emergency citizens
services telephone hours.

Informal Recommendation 8: Embassy San Salvador should include eligible family members
in the consular section’s training, development, and rotational plan as appropriate.

Informal Recommendation 9: Embassy San Salvador should solicit input from other
embassies to determine the most efficient procedures for processing vouchers and revise its
voucher processing procedures to reflect those findings.

Informal Recommendation 10: Embassy San Salvador should require duty officers to
complete appropriate training.

Informal Recommendation 11: Embassy San Salvador should appoint one office to review
duty log entries and report to the front office those officers who do not document their activities
while serving as duty officer.



                                        27
                            SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


        Informal Recommendation 12: Embassy San Salvador should complete the update of its
        locally employed staff handbook to reflect current conditions of employment, ethical standards,
        and disciplinary processes.
[Redacted] (b) (5)


        Informal Recommendation 14: Embassy San Salvador should update its SharePoint site.

        Informal Recommendation 15: Embassy San Salvador should issue a management notice
        designating offices authorized to issue diplomatic notes and requiring retention of all incoming
        and outgoing notes, consistent with records management regulations.




                                               28
                                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



Principal Officials
                                                             Name Arrival Date
Ambassador                                      Mari Carmen Aponte        7/12
Deputy Chief of Mission                              Michael Barkin       9/13
Chiefs of Sections:
  Management
                                         Clarke Allard       9/13
  Consular
                                             Mark Leoni        8/13
  Political
                                         Richard Merrin       8/13
  Economic
                                             John Barrett      9/12
  Public Affairs
                                     Mari Tolliver       7/12
  Regional Security
                                Michael Wilkins       7/12
Other Agencies:
  Bureau of Alcohol, Tobacco, and Firearms             Harry Penate      06/12
  Department of Defense                       Colonel Robert Wagner       8/13
  Department of Homeland Security –
   Citizenship and Immigration Services                Paul Mitchell     10/10
  Department of Homeland Security –
   Immigration and Customs Enforcement              Thomas Almond        04/10
  Drug Enforcement Administration
  Federal Bureau of Investigation                     Joseph Deters      10/08
  Foreign Agricultural Service                       Henry Schmick        9/11
  U.S. Agency for International Development           Kirk Dahlgren      12/12
  U.S. Commercial Service                                Ireas Cook       8/11




                                    29
                        SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CARSI            Central American Regional Security Initiative

DCM              Deputy chief of mission

Department       Department of State

EEO              Equal Employment Opportunity

FAM              Foreign Affairs Manual

FAST             First- and second-tour

ICASS             International Cooperative Administrative Support Services

ILEA             International Law Enforcement Academy

INL              International Narcotics and Law Enforcement

LE               Locally employed

MCC              Millennium Challenge Corporation

PFG              Partnership for Growth

USAID            U.S. Agency for International Development




                            30
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED





 FRAUD, WASTE, ABUSE,

 OR MISMANAGEMENT

OF FEDERAL PROGRAMS

   HURTS EVERYONE.


         CONTACT THE

 OFFICE OF INSPECTOR GENERAL

            HOTLINE

      TO REPORT ILLEGAL

   OR WASTEFUL ACTIVITIES:



         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General

    U.S. Department of State

         P.O. Box 9778

     Arlington, VA 22219





 SENSITIVE BUT UNCLASSIFIED

